OIG Audit Report GR-90-09-003

Office on Violence Against Women Grant to Encourage Arrest Policies And Enforcement of Protection Orders Awarded to Asotin County, Washington
Audit Report GR-90-09-003
March 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General (OIG), Audit Division, has completed an audit of the grant to encourage arrest policies and enforcement of protection orders awarded by the U.S. Department of Justice (DOJ), Office on Violence Against Women (OVW) to Asotin County, Washington (Asotin).  The grant was administered by the Asotin County Sheriffs Office (Sheriffs Office).  The purpose of this grant was to fund the efforts of Asotins Coordinated Community Response Task Force to review mandatory arrest policies and ensure best practices are utilized by law enforcement in the pro active investigation of domestic violence occurrences and the violation of protection orders.  The strengthening of legal advocacy services for victims of domestic violence was also a goal under this grant.  As of August 28, 2006, OVW had awarded Asotin a total of $681,361 for this grant.1
In accordance with our authority under the Inspector General Act, we initially conducted a limited scope survey of Asotins internal controls over DOJ grant funds.  The objectives of our survey were to:  (1) assess the adequacy of Asotins internal controls over DOJ grant funds, and (2) identify internal control limitations that represent impediments to effective grant management and accurate financial and progress reporting.  Upon the identification of material weaknesses in Asotins control environment, we expanded our survey into a full grant audit. 
The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed weaknesses in Asotins grant management practices.  Specifically, we found that Asotin did not have sufficient support for 18 out of 24 non-payroll related transactions tested, and did not follow proper procurement procedures in the purchase of equipment under this grant.  In addition, indirect costs were submitted for reimbursement under the grant but, as of August 2008, these costs were not recorded in Asotins official accounting system.  We also identified inaccurate and late submissions of Financial Status Reports, late submissions of Progress Reports, and inaccuracies in the accounting of grant-related transactions.  As a result, we made 20 recommendations to remedy questioned costs totaling $477,144 and improve Asotins grant management practices and internal control structure.
We discuss these matters in the Findings and Recommendations Section of the report.  Additionally, we discussed the results of our audit with Asotin officials and have included their comments in the report, as applicable.  In addition, we requested written responses to our draft report from Asotin and OVW.  Asotins response is included in this report as Appendix III; OVW did not provide a response to our draft audit report (see Appendix IV). Our audit objective, scope and methodology appear in Appendix II of this report.


 

Footnotes

Asotin received a total of two awards; each was awarded under the same grant number of 2004-WE-AX-0004.





 




Return to OIG Home Page